 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




LOWER LIMB PROSTHETICS CLAIMS
  PAID TO PREMIER PROSTHETICS
AND ORTHOTICS WERE NOT ALWAYS
    SUPPORTED BY ADEQUATE
        DOCUMENTATION


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                       December 2012
                                                       A-07-12-05026
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the Social Security
Act, Medicare Part B provides for the coverage of durable medical equipment (DME),
prosthetics, orthotics, and supplies (DMEPOS). The Centers for Medicare & Medicaid Services
(CMS) contracts with four DME Medicare administrative contractors (DME MAC) to process
and pay Medicare Part B claims.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes as well as modifiers that indicate left or right limb and a functional level.
Each claim can include multiple HCPCS codes, each of which represents a different component
of the lower limb prosthetic provided by the supplier. A lower limb prosthetic is an artificial
replacement for any or all parts of the leg and provides an individual who has an amputated limb
with the opportunity to perform functional tasks, particularly walking, which may not be possible
without the device.

DME MACs develop local coverage determinations (LCD) for some covered DMEPOS items.
LCDs describe the circumstances for Medicare coverage for lower limb prosthetics and outline
the conditions under which DME MACs will cover those devices. LCDs require that some lower
limb prosthetics have minimum functional levels to be covered by Medicare.

To be paid for a Medicare DMEPOS claim, the supplier must have on file: (1) written
documentation of a verbal order/preliminary written order, (2) a detailed written order, (3) proof
of delivery, (4) a beneficiary authorization, (5) information from the treating physician
concerning the patient’s diagnosis, and (6) any information required for the use of specific
modifiers or attestation statements as defined in certain DME policies.

A DMEPOS supplier should also obtain as much documentation from the patient’s medical
record as it requires to ensure that the coverage criterion for an item has been met. If the
information in the patient’s medical record does not adequately support the medical necessity for
the item, the supplier is liable for the dollar amount involved.

This review was completed as followup work to the Office of Inspector General, Office of
Evaluation and Inspections, review, Questionable Billing by Suppliers of Lower Limb
Prostheses, issued in August 2011.

Premier Prosthetics and Orthotics (Premier), based in Creve Coeur, Missouri, supplies lower
limb prosthetics.

OBJECTIVE

Our objective was to determine whether Premier’s paid claims for lower limb prosthetics were
supported in accordance with Medicare DMEPOS documentation requirements.



                                                 i
SUMMARY OF FINDINGS

Premier’s paid claims for lower limb prosthetics were not always supported in accordance with
Medicare DMEPOS documentation requirements. Of the 100 sampled claims totaling $864,139
in payments, 57 claims were supported in accordance with Medicare DMEPOS documentation
requirements. However, the remaining 43 claims were either not supported or were only
partially supported in accordance with Medicare DMEPOS documentation requirements.
Specifically, we identified the following deficiencies (two claims had more than one error):

   •   For 35 claims, Premier did not have documentation from the patients’ medical
       records supporting the medical necessity of the items for which it had submitted
       the claims.

   •   For one claim, Premier did not obtain a verbal or preliminary written order from a
       physician before delivering the item and submitting the claim.

   •   For four claims, Premier did not obtain properly completed written orders from
       physicians before submitting the claims.

   •   For three claims, Premier did not have documentation showing that it obtained
       authorization from the beneficiaries before submitting the claims.

   •   For two claims, Premier’s documentation did not support the minimum functional
       level, as required by the LCD, of the prosthetics for which it had submitted
       claims.

Premier submitted unsupported claims because it lacked adequate internal controls to ensure that
it collected and maintained the required documentation. As a result of these errors, Premier
received payments totaling $115,558 for the 43 sampled claims that were not supported in
accordance with Medicare DMEPOS documentation requirements.

Based on the results of our sample, we estimated that unsupported claims for lower limb
prosthetics paid to Premier resulted in overpayments totaling $284,023 during the period
January 1, 2010, through December 31, 2011.

RECOMMENDATIONS

We recommend that Premier:

   •   refund $284,023 to the Federal Government for unallowable lower limb prosthetic claims
       and

   •   strengthen internal controls by developing and implementing policies and procedures to
       help ensure that it collects and maintains the required documentation.



                                               ii
AUDITEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Premier agreed that the claims we had identified as
findings had documentation deficiencies, but did not agree that the deficiencies reached a level
that would require Premier to refund the $284,023 to the Federal Government for unallowable
claims. Regarding our second recommendation, Premier said that it had instituted internal
controls and process improvements.

After reviewing Premier’s comments, we note that the provisions of CMS’s Medicare Program
Integrity Manual, the Jurisdiction D Durable Medical Equipment Supplier Manual, and the LCD
for lower limb prosthetics are very specific as to the requirements that must be met for these
types of claims to be allowable, and we therefore maintain that the recommendation to refund the
unallowable claims remains valid.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Coverage of Durable Medical Equipment ...........................................1
              Medicare Durable Medical Equipment Documentation Requirements ...............2
              Premier Prosthetics and Orthotics. .......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          MEDICARE DOCUMENTATION REQUIREMENTS NOT MET ............................. 4
            Necessity of Claim Items Not Substantiated by Medical Records ............................ 4
            Physician’s Verbal or Preliminary Written Order Not Obtained
              Prior to Dispensing ............................................................................................... 5
            No Detailed Written Order Prior to Claim Submission ............................................. 5
            Beneficiary Authorization Not on File ...................................................................... 6
            Documentation Did Not Support Minimum Functional
               Level of Claimed Items ........................................................................................ 6

          INADEQUATE INTERNAL CONTROLS ................................................................... 6

          OVERPAYMENTS FOR UNSUPPORTED CLAIMS.................................................. 7

          RECOMMENDATIONS .................................................................................................7

          AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE...7
            Necessity of Claim Items Not Substantiated by Medical Records ............................ 7
            Physician’s Verbal or Preliminary Written Order Not Obtained
              Prior to Dispensing ............................................................................................... 9
            No Detailed Written Order Prior to Claim Submission ............................................. 9
            Beneficiary Authorization Not on File .......................................................................9
            Documentation Did Not Support Minimum Functional
              Level of Claimed Items ........................................................................................10

APPENDIXES

          A: SAMPLING METHODOLOGY



                                                                    iv
B: SAMPLE RESULTS AND ESTIMATES

C: AUDITEE COMMENTS




                           v
                                                INTRODUCTION

BACKGROUND

Medicare Coverage of Durable Medical Equipment

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers
the Medicare program.

Pursuant to sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the Act, Medicare
Part B provides for the coverage of durable medical equipment (DME), prosthetics, orthotics,
and supplies (DMEPOS). Section 1862(a)(1)(A) of the Act requires that, to be paid by
Medicare, a service or an item be reasonable and necessary for the diagnosis or treatment of
illness or injury or to improve the functioning of a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, enacted December 8, 2003, CMS contracted with four DME Medicare
administrative contractors (DME MAC) to process and pay Medicare Part B claims for
DMEPOS. When submitting claims to DME MACs, suppliers use Healthcare Common
Procedure Coding System (HCPCS) codes 1 as well as modifiers that indicate left or right limb
and a functional level. 2 Each claim can include multiple HCPCS codes, each of which
represents a different component of the lower limb prosthetic provided by the supplier. A lower
limb prosthetic is an artificial replacement for any or all parts of the leg and provides an
individual who has an amputated limb with the opportunity to perform functional tasks,
particularly walking, which may not be possible without the device.

DME MACs develop local coverage determinations (LCD) for some covered DMEPOS items.
LCDs describe the circumstances for Medicare coverage for lower limb prosthetics and outline
the conditions under which DME MACs will cover those devices. LCDs require that some lower
limb prosthetics have minimum functional levels to be covered by Medicare.

This review was completed as followup work to an Office of Inspector General, Office of
Evaluation and Inspections, review. 3


1
  HCPCS codes are used throughout the health care industry as a standardized coding system for describing and
identifying health care equipment and supplies in health care transactions.
2
  Lower limb prosthetic functional levels are submitted in terms of K-levels. Functional levels range from a K0 (the
patient does not have the ability or potential to ambulate or transfer safely with or without assistance, and a
prosthetic does not enhance his/her quality of life or mobility) through a K4 (the patient has the ability or potential
for prosthetic ambulation that exceeds basic ambulation skills and that exhibits high impact, stress, or energy levels;
this level is typical of the prosthetic demands of the child, active adult, or athlete). Potential functional ability is
based on the reasonable expectations of the prosthetist and treating physician.
3
    Questionable Billing by Suppliers of Lower Limb Prostheses (OEI-02-10-00170), issued August 2011.

                                                           1
Medicare Durable Medical Equipment Documentation Requirements

Pursuant to the Jurisdiction D DME MAC Supplier Manual, before submitting a claim to the
DME MAC, the supplier must have on file: (1) written documentation of a verbal order/
preliminary written order, (2) a detailed written order, (3) proof of delivery, (4) a beneficiary
authorization, (5) information from the treating physician concerning the patient’s diagnosis, and
(6) any information required for the use of specific modifiers or attestation statements as defined
in certain DME policies.

A DMEPOS supplier should also obtain as much documentation from the patient’s medical
record as it requires to ensure that the coverage criterion for an item has been met. If the
information in the patient’s medical record does not adequately support the medical necessity for
the item, the supplier is liable for the dollar amount involved.

Premier Prosthetics and Orthotics

Premier Prosthetics and Orthotics (Premier) based in Creve Coeur, Missouri, supplies lower limb
prosthetics.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Premier’s paid claims for lower limb prosthetics were
supported in accordance with Medicare DMEPOS documentation requirements.

Scope

We reviewed a total of $2,958,124 in DMEPOS claims that Premier submitted for lower limb
prosthetics and that DME MACs paid during the period January 1, 2010, through December 31,
2011.

Our review focused on whether Premier met Medicare documentation requirements for lower
limb prosthetics. We did not conduct a medical review to determine whether the services were
medically necessary. However, we communicated with Noridian Administrative Services, LLC
(Noridian), 4 about the allowability of certain HCPCS codes and the LCD for the lower limb
prosthetics.

We did not review Premier’s overall internal control structure. We limited our review of internal
controls to those related to our audit objective.


4
 Noridian is the DME MAC for Medicare DME Jurisdiction D. Ninety percent of the claims submitted by Premier
were processed and paid by Noridian, and the other 10 percent were processed and paid by National Government
Services, the DME MAC for Medicare DME Jurisdiction B.



                                                     2
We conducted our fieldwork in March 2012 at Premier’s office in Creve Coeur, Missouri.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and DME MAC guidance;

   •   reviewed Premier’s policies and procedures for submitting claims for lower limb
       prosthetics;

   •   interviewed staff at Premier to gain an understanding of its process for billing DMEPOS
       claims for lower limb prosthetics;

   •   discussed with staff at Noridian the allowability of lower limb prosthetic claims that
       contained HCPCS codes L5964 (addition, endoskeletal system, above knee, flexible
       protective outer surface covering system) and L7368 (lithium ion battery charger);

   •   obtained electronic paid claims data for Premier during the period January 1, 2010,
       through December 31, 2011;

   •   selected a stratified random sample of 100 paid claims from the 368 paid claims during
       the period January 1, 2010, through December 31, 2011;

   •   obtained and reviewed the supporting documentation for each claim that we sampled to
       determine the allowability of the claim; and

   •   discussed the results of our review with Premier officials on May 21, 2012.

See Appendix A for our sample design and methodology and Appendix B for our sample results
and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Premier’s paid claims for lower limb prosthetics were not always supported in accordance with
Medicare DMEPOS documentation requirements. Of the 100 sampled claims totaling $864,139
in payments, 57 claims were supported in accordance with Medicare DMEPOS documentation
requirements. However, the remaining 43 claims were either not supported or were only
partially supported in accordance with Medicare DMEPOS documentation requirements.
Specifically, we identified the following deficiencies (two claims had more than one error):

                                                3
   •   For 35 claims, Premier did not have documentation from the patients’ medical
       records supporting the medical necessity of the items for which it had submitted
       the claims.

   •   For one claim, Premier did not obtain a verbal or preliminary written order from a
       physician before delivering the item and submitting the claim.

   •   For four claims, Premier did not obtain properly completed written orders from
       physicians before submitting the claims.

   •   For three claims, Premier did not have documentation showing that it obtained
       authorization from the beneficiaries before submitting the claims.

   •   For two claims, Premier’s documentation did not support the minimum functional
       level, as required by the LCD, of the prosthetics for which it had submitted
       claims.

Premier submitted unsupported claims because it lacked adequate internal controls to ensure that
it collected and maintained the required documentation. As a result of these errors, Premier
received payments totaling $115,558 for the 43 sampled claims that were not supported in
accordance with Medicare DMEPOS documentation requirements.

Based on the results of our sample, we estimated that unsupported claims for lower limb
prosthetics paid to Premier resulted in overpayments totaling $284,023 during the period
January 1, 2010, through December 31, 2011.

MEDICARE DOCUMENTATION REQUIREMENTS NOT MET

Necessity of Claim Items Not Substantiated by Medical Records

Chapter 5, section 5.7, of CMS’s Medicare Program Integrity Manual, Pub. No. 100-08 (the
manual), states:

       For any DMEPOS item to be covered by Medicare, the patient’s medical record
       must contain sufficient documentation of the patient’s medical condition to
       substantiate the necessity for the type and quantity of items ordered … if the
       information in the patient’s medical record does not adequately support the
       medical necessity for the item, then on assigned claims the supplier is liable for
       the dollar amount involved.

Further, Chapter 5, section 5.8, of the manual provides that “The supplier should … obtain as
much documentation from the patient’s medical record as they determine they need to assure
themselves that coverage criteria for an item have been met.”




                                                4
For 35 of the 100 claims that we sampled, Premier did not have documentation from the patients’
medical records supporting the medical necessity of the items for which it had submitted the
claims. Specifically:

   •   For 24 claims, Premier submitted claims using HCPCS code L5964 (addition,
       endoskeletal system, above knee, flexible protective outer surface covering system). This
       code is for an upgraded outer protective cover for a prosthetic. Premier’s documentation
       did not contain support from either the ordering physicians or Premier itself that the
       beneficiaries had a specific need for an upgraded protective cover.

   •   For seven claims, Premier submitted claims using HCPCS code L7368 (lithium ion
       battery charger). This code is for a replacement charger for a prosthetic that contains
       electronic components. However, for each of these claims Premier also billed for a
       different HCPCS code for a prosthetic that included a battery charger. Accordingly, an
       additional bill for a replacement battery charger was not allowable unless supported by
       documentation substantiating its necessity. Premier’s documentation did not contain
       support for the necessity of a replacement charger.

   •   For two claims, Premier did not maintain sufficient documentation of the patients’
       medical condition to substantiate the necessity for the items ordered. We requested, but
       did not receive, medical records from the treating physicians’ offices that would support
       the medical necessity of these two claims.

   •   For two claims, Premier did not maintain sufficient documentation to substantiate the
       necessity for the items ordered. The HCPCS codes for these items were not included on
       the physicians’ detailed written orders, and those items were therefore not authorized by
       the physicians.

Physician’s Verbal or Preliminary Written Order Not Obtained
Prior to Dispensing

Chapter 5, section 5.2.1, of the manual requires that the DME supplier obtain an order from the
treating physician before dispensing an item(s) of DMEPOS to a beneficiary. Chapter 5, section
5.2.2, of the manual states that the “[s]upplier may dispense most items of DMEPOS based on a
verbal order or preliminary written order from the treating physician…. If the supplier does not
have an order from the treating physician before dispensing an item, the item is noncovered.”

For 1 of the 100 claims that we sampled, Premier did not obtain a verbal or preliminary written
order from the physician before delivering the item to the beneficiary.

No Detailed Written Order Prior to Claim Submission

Chapter 5, section 5.2.3, of the manual provides that a “supplier must have a detailed written
order prior to submitting a claim…. [T]he treating physician must … personally sign and date
the order … if the supplier does not have an order that has been both signed and dated by the


                                                5
treating physician before billing the Medicare program, the item will be denied as not reasonable
and necessary.”

For 4 of the 100 claims that we sampled, Premier did not obtain properly completed detailed
written orders from physicians before submitting the claims. For three of the claims, Premier did
not receive properly completed detailed written orders from the physicians. For one claim,
Premier did not obtain a written order that was both signed and dated by the ordering physician.

Beneficiary Authorization Not on File

Chapter 3, of the Jurisdiction D Durable Medical Equipment Supplier Manual requires that
“[b]efore submitting a claim to the DME MAC, the supplier must have on file … [b]eneficiary
authorization….”

For 3 of the 100 claims that we sampled, Premier did not have documentation on file showing
that it obtained authorization from the beneficiaries before billing Medicare for the lower limb
prosthetics.

Documentation Did Not Support Minimum Functional
Level of Claimed Items

From the LCD (L11453) for lower limb prosthetics:

   •   A flex-walk system or equal (HCPCS code L5981) is covered for beneficiaries whose
       functional level is K3 or above.

   •   A fluid, pneumatic, or electronic knee (HCPCS codes L5814 and L5848) is covered for
       beneficiaries whose functional level is K3 or above.

For 2 of the 100 claims that we sampled, Premier’s documentation did not support the minimum
functional level, as required by this LCD, of the prosthetics for which it had submitted claims.
Specifically, Premier was paid for lower limb prosthetic claims that it had submitted using
HCPCS codes (L5981, L5848 and L5814) that required a minimal functional level of K3.
However, Premier’s documentation supported a functional level that was below the minimum
allowable for Medicare coverage. These two claims were unallowable because the physicians’
orders indicated that the functional level of the beneficiaries was a level K2 (see footnote 2).

INADEQUATE INTERNAL CONTROLS

Premier submitted unsupported claims because it lacked adequate internal controls to ensure that
it collected and maintained the required documentation. Specifically, Premier did not have
policies and procedures in place to ensure that it collected and maintained all required
documentation for lower limb prosthetics claims and that it billed only for properly supported
HCPCS codes.




                                                6
OVERPAYMENTS FOR UNSUPPORTED CLAIMS

Of the 100 claims in our sample, 43 did not comply with the Medicare DMEPOS requirements.
Based on the results of our sample, we estimated that unsupported claims for lower limb
prosthetics paid to Premier resulted in overpayments totaling $284,023 during the period
January 1, 2010, through December 31, 2011.

RECOMMENDATIONS

We recommend that Premier:

   •   refund $284,023 to the Federal Government for unallowable lower limb prosthetic claims
       and

   •   strengthen internal controls by developing and implementing policies and procedures to
       help ensure that it collects and maintains the required documentation.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Premier agreed that the claims we had identified as
findings had documentation deficiencies, but did not agree that the deficiencies reached a level
that would require Premier to refund the $284,023 to the Federal Government for unallowable
claims. Regarding our second recommendation, Premier said that it had instituted internal
controls and process improvements. A summary of Premier’s comments and our responses
follows.

Premier’s comments appear in their entirety as Appendix C.

After reviewing Premier’s comments, we note that the provisions of the manual, the Jurisdiction
D Durable Medical Equipment Supplier Manual, and the LCD for lower limb prosthetics are
very specific as to the requirements that must be met for these types of claims to be allowable,
and we therefore maintain that the recommendation to refund the unallowable claims remains
valid.

Necessity of Claim Items Not Substantiated by Medical Records

Auditee Comments

For the 24 claims that Premier submitted using HCPCS code L5964, Premier agreed that its files
did not contain specific support from the ordering physician or Premier relating to a specific
need for an upgraded protective cover. Premier added that this lack of documentation should not
have been interpreted as support that the flexible protective outer surface covering was
unnecessary. Premier also said that because the protective cover (HCPCS code L5707) and the
flexible protective outer surface (L5964) are intended to work in conjunction to provide
protection, separate medical necessity is not required and all claims relating to this combination
should be paid.


                                                7
For the seven claims that Premier submitted using HCPCS code L7368, Premier concurred that
the files related to these claims did not contain support for the necessity of a replacement
charger. Premier added, though, that the charger is necessary for the prosthetic to function.
Premier also said that before January 2012, CMS’s description of this HCPCS code was for a
lithium battery charger; in January 2012, CMS added the word “replacement” to this description.
Premier said that because the prosthetic in question (a microprocessor knee) did not come with a
charger, and because Premier was in compliance with the law when written, all claims should be
paid.

For the two claims for which Premier did not maintain sufficient documentation of the patients’
medical condition to substantiate the necessity for the items ordered, Premier agreed with the
finding. For one claim, Premier said that it obtained detailed prescriptions but did not verify that
the patient had been seen in the last 12 months by a treating physician. For the other claim,
Premier stated that extenuating circumstances prevented the patient from going to the physician’s
office. Premier added that both patients had their prostheses.

For the two claims for which Premier did not maintain sufficient documentation to substantiate
the necessity for the items ordered, Premier concurred with the finding. However, Premier stated
that in each instance it delivered a K3 (more expensive) prosthetic foot but billed Medicare for a
K2 foot (see footnote 2).

Office of Inspector General Response

We maintain that all of our findings involving unsubstantiated claim items are valid and
note that Premier agreed with all of the documentation deficiencies. The manual is very
specific in stating that for any DMEPOS item to be covered by Medicare, the patient’s
medical record must contain sufficient documentation of the patient’s medical condition
to substantiate the necessity for the type and quantity of items ordered. The manual adds
that if the information in the patient’s medical record does not adequately support the
medical necessity for the item, then on assigned claims the supplier—that is, Premier—is
liable for the dollar amount involved.

The documentation maintained by Premier was not sufficient to substantiate the claims
that included HCPCS codes L5964 (flexible protective outer surface) and L7368 (lithium
ion battery charger). Specific documentation must exist in the medical files for these
HCPCS codes to be allowable.

Although Premier stated in its comments that the protective cover (HCPCS code L5707)
and the flexible protective outer surface (HCPCS code L5964) are intended to work in
conjunction, none of the claims we reviewed that contained HCPCS code L5964 also
contained HCPCS code L5707.

Further, the change to the description of HCPCS code L7368 in January 2012 was a
clarification and was not intended to be seen as a change in the definition or purpose of
that code as it applied to the lithium ion battery charger. Before the January 2012
clarification, HCPCS codes L7368 and L7367 were intended for replacement

                                                 8
components; in fact, the description for HCPCS code L7367 before the January 2012
clarification was “Lithium ion battery, replacement.”

Physician’s Verbal or Preliminary Written Order Not Obtained
Prior to Dispensing

Auditee Comments

For the one claim for which Premier did not obtain a verbal or preliminary written order from the
physician before delivering the item to the beneficiary, Premier agreed with the finding but said
that it received the detailed prescription 1 day after delivery of the item. Premier added that the
prosthetic was delivered and that the patient continued to use the device, and stated that for these
reasons and because all other documentation was in order, there should be no financial penalty
associated with this claim.

Office of Inspector General Response

We maintain that our finding is valid because Premier did not obtain a verbal or preliminary
written order from the physician before delivering the item to the beneficiary. Accordingly, for
this claim Premier did not meet the standards set forth in the manual.

No Detailed Written Order Prior to Claim Submission

Auditee Comments

For the four claims for which Premier did not obtain properly completed detailed written orders
from physicians before submitting the claims, Premier concurred with the findings but provided
additional information explaining why one prescription was not dated, another was not signed,
and two others were not received until after the prosthetics had been delivered to the
beneficiaries.

Office of Inspector General Response

We maintain that our finding is valid because in all four cases Premier did not obtain properly
completed detailed written orders from physicians before submitting the claims. For a claim to
be reasonable and necessary, the manual clearly states that the supplier must have a properly
completed written order before submitting the claim. Accordingly, for this claim Premier did not
meet the standards set forth in the manual.

Beneficiary Authorization Not on File

Auditee Comments

For the three claims for which Premier did not have documentation on file showing that it
obtained authorization from the beneficiaries before billing Medicare for the lower limb



                                                 9
prosthetics, Premier concurred that the authorizations were not in place but described the errors
as clerical in nature and added that in each case the patient received and was using the prosthetic.

Office of Inspector General Response

We maintain that our finding is valid because Premier did not have documentation on file, as
required by the Jurisdiction D Durable Medical Equipment Supplier Manual, showing that it
obtained authorization from the beneficiaries before billing Medicare for the lower limb
prosthetics.

Documentation Did Not Support Minimum Functional
Level of Claimed Items

Auditee Comments

For the two claims for which Premier’s documentation did not support the minimum functional
level, Premier concurred but provided additional information. Premier described the error in the
case of the first claim as clerical in nature and asserted that the appropriate refund should be the
difference between the cost of a prosthetic foot with a K3 functional level and the cost of one
with a K2 functional level. For the second claim, Premier stated that because of the patient’s
weight, its only alternative was to supply a prosthetic knee with a K3 functional level.

Office of Inspector General Response

We maintain that our finding is valid because in both cases Premier’s documentation did not
support the minimum functional level as required by the LCD. Further, the manual specifically
states that for a claim to be reasonable and necessary, the supplier must have a properly
completed order prior to delivery. Because both of these requirements state that the
documentation must support the functional level (K3) of the prosthetics for which Premier
claimed reimbursement, and because in both cases the physician’s orders indicated that the
beneficiaries had a functional level of only K2, Premier’s claim was not allowable. Moreover,
the relevant criteria make no allowance for calculation and refunds of the kind of differences in
amounts that Premier suggested.




                                                 10
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consists of Medicare durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS) claims paid to Premier Prosthetics and Orthotics (Premier) during the
period January 1, 2010, through December 31, 2011.

SAMPLING FRAME

The sampling frame contained 368 paid claims with a payment amount greater than $1,000
totaling $2,958,124 for the period January 1, 2010, through December 31, 2011.

SAMPLE UNIT

The sampling unit is a paid Premier Medicare DMEPOS claim.

SAMPLE DESIGN

We used a stratified random sample.

Stratum 1 – $1,000 to $39,999.99: 366 paid claims
Stratum 2 – $40,000 and more: 2 paid claims

SAMPLE SIZE

We selected a sample of 100 units (paid claims).

Stratum 1 – 98 paid claims
Stratum 2 – 2 paid claims

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units for Stratum 1. After generating 98 random
numbers for Stratum 1, we selected the corresponding frame items. We selected both claims in
Stratum 2.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the amount of overpayments.
                APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                       Sample Results


Stratum   Frame        Value of         Sample     Value of    Number of      Value of
           Size         Frame            Size      Sample      Unallowable   Unallowable
                                                                Services      Services

   1       366        $2,873,970          98      $779,985          41        $113,637


   2        2          $84,154            2        $84,154          2          $1,921


 Total     368        $2,958,124         100      $864,139          43        $115,558

                        Estimated Value of Unallowable Services
                 (Limits Calculated for a 90-Percent Confidence Interval)


                       Point estimate                   $426,320


                        Lower limit                     $284,023


                         Upper limit                    $568,617
                                                                                                      Page 1 of 6



                    APPENDIX C: AUDITEE COMMENTS




 Premier'
     &
         ·
  Prosthetics Orthotics


                                       November 5, 2012



Patrick J. Cogley
Regional Inspection General for Audit Services
601 East 12th Street, Room 0429
Kansas City, MO 64106

       RE:     Response to Report No. A-07-12-05026

Dear Mr. Cogley:

        We have received the draft copy of the above-referenced report and have spent a
significant amount of time reviewing the report and its findings. We appreciate not only the time
that your agency has spent in reviewing the audit findings, but also appreciate the
professionalism with which our company has been treated throughout. As the owners of a small
growing business, we take great pride in not only the services we provide to our patients, but our
reputation in this community. As such, we approached the audit and have now approached the
result of the audit with the highest amount of seriousness and attention to detail as possible.
Indeed, as we will more fully set forth in this response even before the results of the audit had
been presented to us in the draft form, we had already instituted significant internal controls and
changes to our process which we believe will eliminate any possibility of these findings being
repeated. Before we begin a detailed response to the draft audit findings, we believe that some
history of Premier Prosthetics and Orthotics ("PPO") would be helpful.

        The founders and owners of PPO are Greg Doerr and Manny Rivera. Greg and Manny
both graduated from the Prosthetic-Orthotic Center at the Feinburg Medical School at
Northwestern University. Prior to founding PPO, they worked at a combined three prosthetic
and orthotic businesses in the St. Louis area and have a combined 35 years of experience in
prosthetic and orthotics. While PPO is a "new" practice, the reality is over these 35 years of
experience, Greg and Manny had developed a significant network of trusted referral sources
allowing them to "hit the ground running" when they opened PPO. As a result instead of being a
start-up business struggling to find new customers, PPO was able to quickly establish itself as an
orthotic and prosthetic supplier in the St. Louis area.

       In starting their own practice, Greg and Manny used many of the same or similar methods
and practices which they had successfully used al their prior employers. With that as a backdrop,
PPO responds as follows to the spcci fie claims set forth in the draft report.



                      633 Emerson Road - Suite I 0 - St. Louis, MO 6314 I
                            Ph: 314-262-8900 - fax: 3 14-743-3575
                                   ..vww.premierpando.com
                                                                                                    Page 2 of 6





                                                                                                               !




        he drafi report indicates:

       For 24 claims, Premier submitted claims using HCPCS code L5964 (addition,
       endo skeletal system, above knee, flexible protective outer surface covering
       system). This code is for an upgraded outer protective cover for a prosthetic.
       Premier's docwnentation did not contain support from the ordering physician or
       Premier itself that the beneficiaries had a specific need for an upgraded protective
       cover.

        PPO agrees that its records for Sample Nos. 6, 8, 13, 20, 28, 33, 35, 41, 44, 47, 50, 54,
58, 62, 63, 68, 7 I, 78, 83, 88, 91, 92, 98 and 99 did not contain specific support from the
ordering physician or PPO relating to a specific need for an upgraded protective cover. This lack
of docwnentation should not be interpreted as support that the flexible protective outer surface
covering (L5964) is unnecessary. Indeed, based on PPO's history as set forth above, the flexible
protective outer surface covering is necessary when used in conjunction with the protective cover
(L5707) for a number of reasons. As an initial matter, the protective cover (15707) is designed
to provide protection for the underlying prosthetic. The protective cover is relatively
inexpensive in comparison with the prosthetic and by having the protective cover installed,
protection for the dramatically more expensive prosthetic is provided. However, the protective
cover is porous foam that cannot be easily cleaned or disinfected. Indeed, this foam and the very
protection it provides causes it soak up moisture, dirt and germs. The flex ible protective outer
surface covering however, is non-porous and therefore not only protects the protective cover
from the moisture, dirt and germs, but further protects the prosthesis from moisture.
Additionally the protective outer covering can be cleaned with soap and water and disinfected if
required. When the two devices are used concurrently, the prosthetic has protection allowing a
longer usable life and therefore reducing the expense of having to purchase a replacement
prosthetics.

       In Greg and Manny's long-standing experience in the prosthetic field, they had never seen
Medicare question the use of the flexible protective outer surface covering (15964) in any
circumstance. Because the protective cover (L5707) and flexible protective outer surface
(15964) are intended to work in conjunction to provide protection for the underlying prosthesis,
the absence of separate medical necessity is not required and all claims relating to same should
be paid.

       The draft report further indicates:

       For seven claims, Premier submitted claims using HCPCS code L7368 (lithium
       ion battery charger). This code is for a replacement charger for a prosthetic that
       contains electronic components. However, for each ofthese claims, Premier also
       billed for a different HCPCS code for a prosthetic that included the battery
       charger. Accordingly, an additional bill for replacement battery charger was not
       allowable unless supported by documentation substantiating its necessity. PPO's
       documentation did not contain support for the necessity of a replacement charger.


                                                 2
                                                                                                     Page 3 of 6





            above seven claims are found in Sample Nos. 12, 25, 56, 82, 83, 99 and I 00. PPO
concurs that the flies related to those sample numbers do not contain support for the necessity of
a replacement charger. However, PPO believes that its documentation properly supports the
charge as written.

         Prior to January 2012, the Medicare description for HCPCS code L7368 was for a lithium
battery charger. ln January 2012, Medicare added the word replacement to this IICPCS code.
The prosthetic in question, a microprocessor knee, is supplied and billed with a separate
prosthetic knee, but does not come with a charger. ln other words, a battery charger is necessary
for the prosthetic to function, but one is not included. Without the supplied and billed charger,
the prosthetic cannot function. Accordingly, while PPO agrees that its documentation does not
support the new Medicare regulations it docs not agree that the documentations warrant or merit
a d isallowance of the charges in the above-referenced sample numbers. PPO has discussed this
issue and the January 2012 change in the law with its supplier who is working toward a
resolution with Medicare. Because PPO wa<; in compliance with the law when written, it
believes all claims should be paid.

       The report further goes on to state:

       For two claims Premier did not maintain sufficient documentation of the patients'
       medical condition to substantiate the necessity for the items ordered. We
       requested, but did not receive, medical records from the treati ng physicians' oftice
       that would support the medical necessity of these two claims.

        In response PPO agrees with the findings from Sample Nos. 4 and 34. In Sample No. 4
the patient called the original amputation surgeon indicating that they were in need of a new
prosthesis because the prosthesis no longer functioned. That physician referred their patient to
PPO. In this referral we were able to obtain detailed prescriptions and other paperwork.
However, we failed to verify that the patient had been seen in the last 12 months by the treating
physician. Sample No. 34 presented an extenuating circumstance that the patient was a severe
chronic alcoholic who had a high risk of further injury in the absence of a new prosthesis. Due
to the unique situation of this patient, he was unable to make it into the office. PPO
acknowledges that its actions in Sample No. 34 did not necessarily comply with Medicare
requirements. However, it made decisions in the best interest of the patient. While the
documentation may not be present, both patients have their prosthesis and disallowance of the
entire claim appears to be an inappropriately harsh punislunent. When the client's needs have
been appropriately met, PPO's failures in these two cases do not support disallowance of the
entire claim.

       The report further goes on to state:

       For two claims, Premier did not maintain sufficient documentation to substantiate
       the necess ity for the items ordered. The HCPCS codes for these items were not
       included on the physician's detailed writlen orders, and those items were therefore
       not authorized by the physician.




                                                 3
                                                                                                     Page 4 of 6





              concurs with the findings from Sample Nos. 29 and 52. In each instance PPO
delivered prosthetic feet that were of a K3 (higher activity level) but billed Medicare for K2
(lower acti vity level). In reaching a determination to reject this claim, some background is
necessary. A K2 foot, because it is designed for a lower activity level is less robust than a K3
foot, which is designed for a higher activity level. The K3 foot is more expensive due to its
construction. The patient received a K3 (more expensive) foot. Medicare was billed for a K2
foot. Disallowance of these claims fai ls to take into consideration all of the information
available and unnecessarily punishes PPO for a simple clerical error.

       The report further goes on to say:

       For one claim Premier did not obtain a verbal or preliminary written order from a
       physician before delivering the item and subrrutting the claim.

        PPO agrees with the findings of the report in Sample No. 65. The detailed prescription
was received one day after delivery. However, the prosthetic was delivered and the patient
continues to use the device. Disallowance of the entire amount is an overly harsh resolution.
Indeed, given that the patient is using the device and all other documentation is in order, there
should be no penalty. In past, Medicare audits which Greg and Manny are aware this level of
perfection was not required. As more fully set forth herein the revised claims review process
will prevent such an error from occurring in the future.

       The report further goes on to say:

       For four of the claims that we sampled, Premier did not obtain properly completed
       detailed written orders from a physician before submitting the claims. For three
       of the claims, Premier did not receive properly completed detailed written orders
       from the physicians. For one claim, Premier did not obtain a written order that
       was both signed and dated by the ordering physician.

        PPO concurs with the findings from Sample Nos. 15, 16, 30 and 49. However, for each
there are explanations which PPO believes should be taken into consideration in the final version
of the report. In Sample No. 16, PPO received the signed prescription from the surgeon,
however, the surgeon failed to date that prescription. Additional documentation in the file
namely the fax header showing the date of receipt supports that the prescription was prepared by
the physician at that time. Disallowance of a claim based on the mistake of a physician, not
PPO, is an overly harsh resolution. In Sample No. 30, PPO was given a verbal order to begin
construction of the prosthesis. In addition the physician from the patient's nursing home signed
to have the patient start physical therapy with the prosthesis. Following these orders, the
physician left for vacation and was not reachable by the time the prosthesis was ready for
delivery to sign the detailed written order. Given the patient was obviously in need of the
prosthesis and had already begun therapy for same, a disallowance of the entire claim is an
overly harsh resolution. In Sample Nos. 15 and 49, the audit revealed that detailed written
prescriptions were not received by PPO until after the time of delivery. The samples indicate a
mistake as PPO did not realize that the detailed prescriptions were missing at the time of
delivery. The prosthesis, as delivered, confirmed to the preliminary and detailed prescription and
it cannot be ignored that the patient has the prosthesis and is using it. Separate from the overly

                                                4
                                                                                                         Page 5 of 6





       harsh nature of disallowance, as more fully set forth herein, PPO believes that mistakes of
 this type will no longer occur given the revised claims process that has been put into place.

         The report further goes on to say:

         For three of the 100 claims that we sampled, Premier did not have documentation
         on file showing that it obtained authorization from the beneficiaries before billing
         Medicare for the lower limb prosthetics.

         These three claims are presented in Sample Nos. 36, 66 and 69. As a result of PPO's
 independent review of these samples, PPO does concur that authorization was not in place. The
 failure to have the signed authorizations in the file is one of a clerical error and was primarily
 due to the patients being seen outside of PPO's office and the signed authorizations not being
 properly scanned into the patient's file at PPO. However, what PPO believes this report should
 include and what should be taken into consideration in the finalization of this report is that for
 each instance the patient received the prosthesis as prescribed and is using the prosthesis. It
 seems inequitable for the entire claims to be denied. As set forth above, in Greg and Manny's
 experience, audits of prosthetic companies in the past did not require this level of perfection for
 claim allowance. In addition, the internal controls instituted will avoid any such problem in the
 future.

         The report further goes on to say:

         For two of the claims, Premier's documentation did not support the minimum
         functional level as required by the LCD, of the prosthetics for which it had
         submitted.

         This issue involves Sample Nos. 4 and 34. PPO concurs that Sample Nos. 4 and 34 did
 not contain the appropriate documentation to support function level. Sample No. 4 was simply a
 clerical error which based on PPO's refined claims submission process should not occur in the
 future. As the script required a K2 foot and K2 foot was provided, PPO believes the appropriate
 remedy is a refund of the difference between a K3 and K2 toot, not disallowance of the entire
 claim.

           In Sample No. 34, however, further explanation is necessary. While the patient exhibited
  a K2 level, that patient weighed in excess of 350 pounds. K2 level prosthetic knee rated for a
  patient over 350 pounds was not available (as far as PPO is aware, no such knee exists). As a
  result, the only alternative was to provide the patient with a K3 level prosthetic knee. Until this
· billing issue can be cleared up with Medicare PPO will simply refuse to provide transfemoral
  amputees who weigh over 350 pounds with prosthesis. Based on PPO's participation in its
  industry, this is a common issue, with no resolution available.

         As indicated above PPO has considered this audit a very serious matter. It is
 disappointed that there have been any errors in its processing of claims as it prides itself in being
 a well-run and efficient company. In response PPO has worked with a Six Sigma Black Belt to
 develop and implement a Six Sigma measurement based strategy to focus on process
 improvement and variation reduction. This process uses the Six Sigma methodology known as

                                                   5
                                                                                                     Page 6 of 6





     DMAIC process (define, measure, analyze, improve, control) which is an improvement
system for existing processes falling below specification and looking for incremental
improvement. PPO would be proud to present this process and the resulting process map to the
auditors. All PPO staff has been trained and has been given ownership of the process through
each step. It is believed by PPO that this process will eliminate the mistakes found above. In
addition PPO has assigned an individual with the daily task of reviewing the Medicare website to
catch any changes or revisions in Medicare policy immediately. Through the Six Sigma process
PPO determined that its office manager position needed to be upgraded and hiring has occurred
to reflect that need.

        In summary PPO, while disturbed by the findings in the draft report, freely acknowledges
that its processes did not provide perfect compliance with the law, it is disappointed, but as
indicated, perfection had not previously been required. However, in acknowledging this PPO
has taken significant steps to ensure that such mistakes do not occur in the future. PPO believes
that disallowing all of the above claims for the simple errors recounted above is an unnecessarily
harsh resolution and would request that the punishment for the above mistakes be more
appropriate and in line with the level of the actual mistake.

                                             Sincerely,




                                              ~'-
                                             Manny Rivera




                                                6
